Attorneys for Petitioners
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov
Party name: Donald J. Trump, President of the United States, et al.
Attorneys for Respondents
Joshua A. Klein
Counsel of Record

California Department of Justice
Office of the Solicitor General
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413

510-879-0756

joshua.klein@doj.ca.gov
Party name: California and New Mexico
Dror Ladin
Counsel of Record

American Civil Liberties Union Foundation
125 Broad Street, Fl 18
New York, NY 10004
dladin@aclu.org

Party name: Sierra Club & Southern Border Communities Coalition

212-284-7303

